March 27, 2000

A. KEITH STRANGE
VICE PRESIDENT, PURCHASING AND MATERIALS

SUBJECT;      Transmittal of Audit Report - Commercial Air Carrier Performance:
              Payment for Ground Handling Services
              (Report Number TR-AR-00-006)


This is the third of three reports resulting from our audit of commercial air earner
performance conducted at the request of the chief operating officer (Project Number
99PA023TR000). The audit revealed the Postal Service was paying commercial
airtines for ground handling services performed by postal employees. We provided
three recommendations to correct the problems identified in this report and potentially
save approximately $28 million (over a five-year period) by adjusting the contract rate.

Management generally agreed with the report findings and recommendations, but
planned to delay concurrence on the estimated cost savings until contract specifications
for the upcoming 2001 Air Systems contract are reevaluated.

We appreciate the cooperation and courtesies provided by your staff during the audit. If
^ou have questions or need additional information, please contact
                                  or me at (703) 248-2300.


/SIGNED/
Robert L. Emmons
Acting Assistant Inspector General
  for Performance

Attachment

cc:   Clarence E. Lewis, Jr.
      John E. Potter
      Sylvester Black
      J. Dwight Young
      Anthony M. Pajunas
      John R. Gunnels
Commercial Air Canier Performance:                                TR-AR-00-006
 Payment for Ground Handling Services


                                  TABLE OF CONTENTS

Parti

Executive Summary


Part II

Introduction
     Background
     Objectives, Scope, and Methodology


Audit Results
    Payment for Ground Handling Services
    Recommendations
    Management's Comments
    Evaluation of Management's Comments

Appendix A Postal Service's Ground Handling Costs at 17 Airport
           Mail Center/Facilities

Appendix B Management's Comments
Commercial Air Carrier Performance:                                                                   TR-AR-00-006
 Payment for Ground Handling Services


                                       EXECUTIVE SUMMARY
Introduction                     This is the third of three reports resulting from our audit of
                                 commercial air carrier performance.^ The chief operating
                                 officer requested that we review air carrier performance
                                 because carriers have not been meeting expected on-time
                                 delivery targets established by the Postal Service's Air
                                 Systems contract. In fiscal year (FY) 1999, the national
                                 average score for on-time performance was 60 percent, as
                                 reported by the Postal Service.

                                  This report presents our assessment of ground handling
                                  services performed by postal employees at 17 airport mail
                                  centers/facilities. A list of these locations is provided in
                                  Appendix A.

Results In Brief                  The Postal Service incurred over $5.6 million in FY 1999 for
                                  ground handling services^ performed by postal employees
                                  at 17 airport mail centers/facilities that commercial air
                                  carriers were paid to provide. Although the Air Systems
                                  contract requires air carriers to unload the mail at delivery
                                  points, the Postal Service changed these procedures
                                  through local agreements at 17 locations. At 14 of these
                                  locations, agreements were verbal and at 3 sites
                                  agreements were in writing.^ Postal managers indicated
                                  revised delivery procedures were needed because air
                                  earner service had been unreliable and pooriy designed
                                  induction systems made it difficult for air carriers to unload
                                  the mail.

                                  Although the Postal Service assumed responsibility for
                                  unloading the mail at the 17 airport mail centers/facilities,
                                  coresponding adjustments to the contract rate for these
                                  services were not made. While the original terms of the Air
                                  Systems contract allows alternate delivery procedures to be
                                  negotiated, it does not provide for rate adjustments when
                                  tender or delivery changes are made through local



^ T?ie first report, Commercial Air Camer Performance: Performance Measurement System, addressed the reHablllty
of the perfomtance measurement system used to evaluate air carriers. The third report will address the effectiveness
of the Air Systems contract In improving air carrier perfomiance.
^ Ground handling services consist ofthe loading and unloading of mall at origin and destination postai facilities and
sorting the mail by flight.
^ The three sites that had written agreements were Philadelphia, Los Angeles, and Indianapolis. However the
Philadelphia agreement did not address delivery procedures.
Commercial Air Carrier Performance:                                              TR-AR-00-006
 Payment for Ground Handling Services


                             agreements. As a result, the Air Systems contract is in
                             conflict with the Postal Service's Purchasing Manual, which
                             requires fair and reasonable contract pricing.

                             Obligating the Postal Service to reimburse carriers for
                             services not performed does not constitute fair and
                             reasonable pricing. While the Air Systems contract makes
                             no rate adjustments for changes in delivery procedures,
                             paying for services not performed is a waste of postal funds
                             and constitutes ineffective financial management. With the
                             Air Systems contract coming up for renewal in
                             September 2000, the Postal Service has an opportunity to
                             save approximately $28 million over the next five years by
                             adjusting the contract rate by the cost for postal employees
                             to perform these services.


Summary of                   In negotiating the terms of the new Air Systems contract, we
Recommendations              recommend the vice president of Purchasing and Materials
                             determine the contract value for delivery services, reduce
                             the contract rate where postal employees are unloading the
                             mail, and eliminate provisions that prohibit contract rate
                             adjustments when service changes occur.

Summary of                   Management generally agreed with our findings and
Management's                 recommendations but delayed concun'ence on estimated
Comments                     cost savings. Specifically, they sent existing specifications,
                             which include the value of delivery services, to the area
                             offices for updating, and will make any necessary changes
                             at that time. Although management did not totally agree
                             with the estimated cost savings, they agreed to give special
                             attention to the cost of delivery services performed by postal
                             employees in the upcoming 2001 Air Systems contract, and
                             determine cost savings at that time. Management also
                             planned to reevaluate, and if necessary, eliminate any
                             provision that prohibits contract adjustments in the 2001 Air
                             Systems contract.

Overall Evaluation of         Management's comments were generally responsive to our
Management's                  findings and recommendations, and planned actions should
Comments                      correct the issues identified in this report. While
                              management did not fully agree with our estimated savings
                              resulting from reducing the contract rate for services
                              performed by postal employees, they plan to give special
                              attention to this area in setting the rate for the 2001 Air
                              Systems contract.
Commercial Air Carrier Performance:                                                              TR-AR-00-006
 Payment for Ground Handling Services


                                              INTRODUCTION

Background                        Under the Air Systems contract the Postal Service pays
                                  commercial air carriers approximately $.31 a pound to
                                  transport Priority Mail and First-Class Mail. Approximately
                                  two-thirds of this rate covers ground handling costs and
                                  one-third covers line haul services between origin and
                                  destination airport mail centers/facilities. Ground handling
                                  includes loading and unloading mail at origin and
                                  destination postal facilities and sorting the mail by flight.
                                  Line haul comprises the flight itself.

                                  The Air Systems contract requires air carriers to deliver mail
                                  to postal airport mail centers/facilities and unload it onto the
                                  Postal Service's mail transport equipment and/or induction
                                  belt system. The contract also allows the Postal Service to
                                  change delivery arrangements through local agreements.
                                  According to the Air Systems contract, the Postal Service
                                  has agreed to offload the mail at 17 of 79 airport mail
                                  centers/facilities.

                                   The Air Systems contract expires in September 2000, and
                                   the Postal Service is cun-ently negotiating the renewal of
                                   this contract.

Objective, Scope, and              Our overall objective was to assess whether the delivery
Methodology                        and ground handling provisions of the Air Systems contract
                                   were in the Postal Service's best interest. To accomplish
                                   this objective, we reviewed the Air Systems contract and
                                   local agreements, interviewed headquarters contracting
                                   officials, and analyzed the Postal Service's costs to unload
                                   mail at airport mail centers/facilities. We also visited three^
                                   airport mail centers/facilities that had local agreements and
                                   interviewed plant managers at these locations.

                                   This audit was conducted from May 1999 through
                                   March 2000 in accordance with generally accepted
                                   government auditing standards and included tests of
                                   internal controls as were considered necessary under the
                                   circumstances. We discussed our findings with appropriate
                                   management officials and included their comments, where
                                   appropriate.



* Sites visited included Baltimore, Chicago, and Philadelphia Airport Mail Centers/Facilities.
Commercial Air Carrier Performance:                                                                    TR-AR-00-006
 Payment for Ground Handling Services


                                            AUDIT RESULTS
 Payment for Ground                The Postal Service incurred over $5.6 million in FY 1999 for
 Handling Services                 ground handling services performed by postal employees at
                                   17 airport mail centers/facilities that commercial air carriers
                                   were paid to provide. Although the Air Systems contract
                                   requires air carriers to unload the mail at delivery points, the
                                   Postal Service changed these procedures through local
                                   agreements at 17 locations. At 14 of these locations
                                   agreements were verisal and at 3 sites agreements were in
                                   writing.

                                   The Postal Service primarily used existing staff to unload
                                   the mail at the 17 delivery points. However, one location
                                   increased staffing and another contracted out these
                                   services.^ Based on postal estimates, the cost to the Postal
                                   Service to unload the mail was approximately $5.6 million in
                                   FY 1999, as shown in appendix A.

                                   Postal managers indicated revised delivery procedures
                                   were needed because air carrier service had been
                                   unreliable, and in some cases, ineffective induction systems
                                   made it difficult for earners to unload the mail. For example,
                                   at one location^ we found the induction belt system
                                   congested and unable to efficiently handle the volume of
                                   mail delivered by the air carriers.

                                    Although the Postal Service assumed responsibility for
                                    unloading the mail at the 17 airport mail centers/facilities,
                                    corresponding adjustments to the contract rate for these
                                    services were not made. While the original terms of the Air
                                    Systems contract allows altemate delivery procedures to be
                                    negotiated, it does not provide for rate adjustments when
                                    tender or delivery changes are made through local
                                    agreements. Therefore, the terms of the Air Systems
                                    contract obligate the Postal Service to reimburse canriers
                                    the contract rate, even though postal employees perform
                                    some ground handling services. As a result, the Air
                                    Systems contract is in conflict with the Postal Service's
                                    Purchasing Manual governing contract pricing. Under the
                                    Purchasing Manual, when determining contract prices and
                                    pricing modifications, the Postal Service must ensure

  Los Angeles Airport Mall Center Increased staffing and the Seattle Airport Mail Center contracted these services out
at an annual cost of $1.5 million.
* The Philadelphia Airport Mail Center had an inefficient Induction belt system.
Commercial Air Carrier Performance:                                               TR-AR-00-006
 Payment for Ground Handling Services


                              contract prices are fair and reasonable. Obligating the
                              Postal Service to reimburse carriers for services not
                              performed does not constitute fair and reasonable pricing.

                              According to contracting officials, the Air Systems contract
                              was constructed to allow postal employees to unload the
                              mail with no financial consequences to the air carriers.
                              Because delivery inefficiencies were primarily attributable to
                              ineffective postal induction belt systems, postal officials
                              believed that offloading the mail would give the Postal
                              Service better leverage, improved service, and less
                              congestion within the facilities. However, paying for
                              services not performed is a waste of postal funds and
                              constitutes ineffective financial management.

                              The pending renewal of the Air Systems contract presents
                              the Postal Service with an opportunity to change the
                              provisions of the contract governing the payment of delivery
                              services not performed by the air carriers. We believe the
                              Postal Service can save approximately $28 million over the
                              next five years by reducing the Air Systems contract rate
                              where postal employees are performing delivery services for
                              air carriers.

 Recommendation                In negotiating the terms ofthe new Air Systems contract, we
                               recommend the vice president of Purchasing and Materials:

                               1. Enter into discussions with the air carriers to determine
                                  the contract value for delivery services under the Air
                                  Systems contract.

 Management's                  Management agreed with the findings and recommendation
 Comments                      and asked area offices update existing specifications, to
                               include delivery service requirements. They plan to make
                               necessary updates in preparing for renewal ofthe 2001 Air
                               Systems contract.

 Recommendation                2. Reduce the contract rate by the cost of delivery services
                                  at those airport mail centers/facilities where postal
                                  employees are unloading the mail.

 Management's                  Management disagreed, stating that altiiough there may be
 Comments                      savings, rates should not be reduced for the cun-ent
                               contract. Such a rate reduction would open up the entire
                               population of over 300 air stop points around the country to
Commercial Air Carrier Performance:                                               TR-AR-00-006
 Payment for Ground Handling Services


                              examination. Management indicated that, in several
                              instances, airiines are doing more than what is called for in
                              the conti"act. However, they plan to give special attention to
                              this area in setting the rate for the 2001 Air Systems
                              contract, and determine potential savings at that time.

 Recommendation               3. Eliminate provisions that prohibit contract rate
                                 adjustments when service changes occur in the new Air
                                 Systems contract.

 Management's                 Management generally agreed with the recommendation.
 Comments                     They stated the contract adequately allows for rate
                              changes; however, they will reevaluate, and if necessary
                              eliminate provisions in negotiating the 2001 Air Systems
                              contract.

 Evaluation of                Management's comments were generally responsive to our
 Management's                 findings and recommendations. Management's planned
 Comments                     actions should con'ect the issues identified in this report.
                              Management did not fully agree with the estimated savings
                              resulting from a reduced contract rate for services
                              performed by postal employees. However, they planned to
                              give special attention to this area when setting the rate for
                              the 2001 Air Systems contract and to determine actual cost
                              savings at that time. Further, although they believe the
                              current contract allows rate changes, management agreed
                              to reevaluate, and if necessary, eliminate provisions
                              prohibiting rate adjustments in the 2001 Air Systems
                              contract.
Commercial Air Carrier Performance:                                                        TR-AR-OO-006
 Payment for Ground Handling Services




                              APPENDIX A.
                 POSTAL SERVICE'S GROUND HANDLING
              COSTS AT 17 AIRPORT MAIL CENTER/FACILITIES




      Airport Mall                               Local                              Total FY 1999
     Center/Facility                           Agreement                                Cost*


Albany, NY                                       Verbal                                $     152,250
Baltimore, MD                                    Vertsal                                     210,000
Sacramento, CA                                   Vertsal                                      105,000
Buffalo, NY                                      Verbal                                      210,000
Chicago, IL**                                    Vertjal                                     680,800
Dallas, TX ***                                   Vertial                                     521,858
Detroit, Ml                                      Verbal                                        78,750
Grand Rapids, Ml                                 Verbal                                        35,000
Greenville, SC                                   Verbal                                        94,500
Indianapolis, IN                                 Written                                       70,000
Los Angeles, CA                                  Written                                      315,000
Philadelphia, PA                                 Written                                      805,000
Portland, ME                                     Verbal                                        70,000
San Diego, CA                                    Verbal                                       105,000
San Francisco, CA                                Verbal                                       525,000
Seattle, WA * • "                                Vert)al                                    1,585,965
Syracuse, NY                                     Verbal                                        70.000

Total Annual Cost                                                                       $ 5,634,123

Projected savings over
the next 5 years:
5 years x $5.6 million                                                                     $28 million

*Cost based on approxinnate employee annual salary of $35,000 excluding benefits.
**Total taken from Decision Analysis Report for the Chicago Airport Mail Center.
***Tota! taken from Decision Analysis Report dated August 16,1999.
" " C o s t taken from contract for Seattle Airport Mail Center.
Commercial Air Carrier Performance:                                                                                   TR-AR-00-006
 Payment for Ground Handling Services


                                       APPENDIX B.
                                  MANAGEMENT'S COMMENTS

               ruTioMi. MAO. TKuerctrjKrat r\t>a4iai»a
               iwirgpsraTEt
              POSTAL iEKVKE


              Fsbnjarv 20. 2000



               RICHARD F. CHAMBERS

               THRU: KEUH STRANGE

               SUBJECT: TraTismitta) o( Drat Audil Report - Corrnnercbl Air Carrier Pertormann
                        Paymsrt for Oround Handling Servlcei
                        (Report Number TR-AR-0&-DRAFTJ

               This is in re^pCHM lo the rscornrwidatlona contained h the sut^ect report, dvtad J a u u r y 3 1 ,
               2000. Trw report recommerKls a cefias erf moclif>cat«rs hJ lh« cortracts W i commercial air
               carrKJcB to reduce Iha uniform rets to eGminale payment fof grounO hordUng services wtiere tne
               Postal Service performs what might seem to be work that should or Is normsily perfcr-ned by tha
               ccntractor at somv v p o r t s .

               Bacfcoround:

               Dating back to Ihe eBriy eighties, tha ratsA for transpaning maj in Ihe domebttc inarket were
               sitabliuhed t>y tlia CMI Aeronautice Board (CAB). Tha CAB wag Eunuri In ^ e nnld'elgMles, and
               the POS'JI Service wer.t to the compelitiwe merhetplsce to purdimc transptvlatlan Ecrvices from
               tha commarcia air c^rrierm. Thli appHMCh led to significant siiTvico loiJurcs end cost cnrBrn.'ng in
               t t w » marKets where one or tMo csiriers iwere dominant Intwr^iy. jwnt?) npftrBtlons routed rreii
               baiod onttwp'icD ow poiffid, wiThojl a dfler sictureortTteoperalbnEid Impncts (hat would DCCV
               Nvwri l o w p r l u d planes' buSced OLtf. Ttw eKperlencee of me eeily eightios i«o to iha
               developm«nt or ow current untforrr. negotlatea n m environment.

               Rpvlaiv DT A S V S 94-01 and ASYS B641 Rate DivelopiTwit Methodelogy

               ASY5 84 end 99 rales were developed f r o m s c r a t ^ ' laktg a txilton-up rntfhodduyy. The
               Postal Sorvlcc rctalnod the servicus ul PilLuWalto-ltouMCoopers {PwC> <then Price Walerhouse}
               lo corKluct s Gurvcy to determine c o m p B r ^ e canvnefcU f r e ^ rates snd split these overall
               rates Into ms^^aul «nd termini components us^ic eoofvornetiic analyst. These tiaie tr^iBln
               races vrera then wJlusted to account for cost difrererices t»ecwe«n moil and freight and to reflect
               the maJ9 priority twardlng status vwcr rrcight. The vurbus ground hsvidling snd other aperabonsl
               varianoes were also constdered dmng ihs nagotiiiiiartt pa)cess.

               Review of ASYS S7-01 and ASYS M-Q^ Rsle Adjus4m«r4 Usthodolotiy

               For the ASYS 97 and HQ coniracu. tha Postal Service succeEsfuOv applied a new approach to
               cevetoplng the contract. This sppresch adjustad tho rsilslmg rate Tor recent marliet and mail
               ch;]ract(>rtstics changes, raiher than oonduoli'ig a tew rate survey and calculating the new rates
               f r o ^ scratch. As the currqnt cohbnacl was set tn place, tha variouE opcro^iorul dlffere'tces were
               considarad Curing tha rwQOtiBliiB process

               Although the r«ci)mmendatlcns disaissed h iteme 1 trrough 3 vn I be items erf r>aoatii]t'0(i in
               future contracts, the welghled rust effetd tfiese type of operating changes rsmeins to bu awmi. The
               ret-oivnendations will Iw «valunted during the oontrsct negotiations for ASyS-200'.


               WM»«aTmDC 3UI9411B

                CM' iu-»a-ui3
Commercial Air Carrier Performance:                                                                                                            TR-AR-00-006
 Payment for Ground Handling Services




               Ttw untform rate, datiibgt>acktohB nception in 1094,0 not h a higtwti m r lowest possHllarats
               ^ a t ih« carrtora could be paid using the a b c w anolyBis and rtacotating process. It iBpresenm nn
               figreemant between the Posrtal Survica and a group of su^^Dart to pefform worK {transportation
               and ground r^andltng) at an sTeed upon HJOHJ rale. The rate represents r m price the Postal
               Service pays far the movement of m i ^ by the ctimmarclaj carriers "aS thtngs considered.' As
               pntviausly mer.tlonad. :he various ground handing diffarBncss wars dxcussed with postal fnid
               mprasuMtivtis and llrullywihtna canier repreiuntaiJvBs. Mtermucf.diKusslun and some
               modifirjiiiDnr. In tha rate, it WB5 agreed thai t i s carrtos wo j)d prov.de their services 'all things
               considered* at a Lnltorm rate. A Kay part of the agreuiwnl in UiaC locat post&J menegerv ^vouKi
               havff :he naajbttity to form local agreements to meet bc-bl u t w a ^ requirements, the negotiated
               uniform raie was imptemented In One best siterest ofthe Po«tai Service wtth trw ftsKfaBlty of local
               agreements ti«arty MBr>ded. As we move forwnni inCo • ntore Fle^^la operating end purchasing
               EnvifDnn^ent where wo adjust the contrsct rate for local operearg differanoeB. t will likdy 'neraase
               bottom line oost to the Poitel Garvlea.

               A S Y S C o r O r a e t P r i c i n g C o f t l l l c t s W H h P u f c h s s i n g M s n u s t tP*A\ P r i c i n g :

               AJ9iough tho PM b desig-ted to protnolg \.nHamiy, it does support a numbar of the unique
               requrementsof trensportationpurchssng. Sactron 4.5.1.b Indicates thai in those cases whsra
               (hare ts a contlic:T between that section ^nrt •:hBr parts of DM manual, 4.5,1,b gove'tis Section
               4 5.5.d1.[d] of h e PM was spedficaltylnBertBd to support unlfOTt rate contracts such as Che
               ASYS contracts. Given the irrtent arvd s f u c t i r e of tha Pi^. we cannot agraa ttiat there is a
               conffict.

               Soeclfic Recommendations:

               1     Enter into drscuxsEins wfii the air o v n e n to deiamnhe the conlract value for delivery BcrvlcCE
                     jntier 11^ Air SyEtems conlract.

                            RespamMi.: M a agree wiVi Ihe recomr'Mindalkvi. arid £Ub,'nit thai ttia solutiun to the
                            recomrrxwlslion Is currently underway n has been our standard practice in foime' A5VS
                            contracts. Logditica nas sent the sKtstlng vpwirKulicNM lo :he Are& a ^ r v ) for updated
                            requirements, v/hieh l i d u d e the specttic dal.vary service luguirwnants. Updates wil be
                            made where necessary in p^ieraCon for tha rav j » d Air System Contract n be effective
                            FYZ001.

               2.    Reduce ttw contract rate sv the cost af delivery sen/Ices al those eirport mail centers/tadUJas
                     where postal emplayves sr« unlonding the mai.

                            Ry^CHise: Wa do nol agree. Although l ^ - o may be savinga. wa da not uffmo that
                            rates should be reduced based on thts partitajbr study. SpecVically (o do so would open
                            up the enlve pcputatian d over 300 sir itop t M ^ U around the couriby to examination.
                            Based uport our axparimce, the aHlrtea, m soveral irutonces, are doing mora than whut
                            is called for in The contract, AdiftioiwRy, a unilonn aystcm m\o yields an overaU o s t
                            advantage to the Postal sentca. We w i give spacid etlsntion to this Kem in arr.ving a<
                            the raw for t n * i^cominQ ASYS TOOt contract An evaUstUn of nry poiflhUal eaviigs w3
                            be delermined as wa nove forward wiih iha fiSYS 2QQ1 conlrscl.

               3.     EGmriatii provislcni that arohlbl contract 'ate adjustments when seivtcc Ganges ouuui bi the
                      new Air Systems contract

                      fteaporncr.       W « baliave that tha c o n b » c l kdoquBlAly aSiTwa f o r rate c h a n g a a d e c to c h a n g e d
                      uiiiditkirw throughout tha term, but vm wdl rv-eveliiBta ar>d alirriihote the p''0vis4ms. if
                      iMiC«ss«ry. in the locomirta monttts leading up to ASYS 2001.

                NotB'       The racomrreiKlalions are dL-ected at the 200* ASYS caitrsot, not tho existing uuiitrec-.
                            As long as wa employ a uniform rate contraci, we t h M that an overall coEt aovantuge
                            sccfjes to I'M Postal Service: howovar. one of the constrflinls that must ba taken ir,lo
Commercial Air Carrier PerTormance:                                                                                  TR-AR-00-006
 Payment for Ground Handling Services




                       conkldwuliun It that not every operational variant can be addressed on a case by case
                       tws'iv.

               SymmaiY

               Ttie reconimendadans outGned BI the sut>jec4 report wil be pursued as wo move Into a
               competitive pjictiasing «nvironmeni Based on our 0Kp«rlancs8 In eontroctng with laroe
               Bippliars for air transportelicin and cround handling servioes, wa wtf rnprnva overall parformancB,
               but It wai liKe^y be at en avefage line-tiaul cost greaisf then 5.32 per pound rrde

               'HisnK you for your feedback, and we look toward to wanting with you and tha trwmtierb of your
                    I {n the future.




               J.Tiwfghi Young. Uanao«r
               Motional Well TransporiBllan Purchasing
Commercial Air Canier Performance:      TR-AR-00-006
 Payment for Ground Handling Services




 Major Contributors to
 the Report
